May 11, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Corbello v. Valli et al., No. 20-1448
Request To Extend Respondents’ Time To Respond To Petition

Dear Mr. Harris,
I write on behalf of Respondents to request a 25-day extension of time under Rule 30.4 to
respond to the petition for a writ of certiorari in Corbello v. Valli et al., No. 20-1448: from May
17, 2021 to June 11, 2021.
On May 6, I emailed Gregory Guillot, counsel of record for Petitioner, to ask if he would
consent to an extension request. He informed me that he could not consent to any extension that
would preclude the Court’s consideration of the petition in June.
However, as I informed Mr. Guillot, Respondents are seeking the extension because of
the ongoing challenges due to the COVID-19 pandemic: for example, we have not yet returned
to our offices, and are still working from our homes. Under these circumstances, Petitioner fully
utilized the 150 days she had to file her cert petition.* We also face several conflicting deadlines
in May, including motion briefing in three U.S. District Court cases.
We appreciate the Court’s consideration.
Respectfully,
cc: Counsel for Petitioner
via email

*

/s/Terence P. Keegan
Terence P. Keegan

May 12, 2021: Respondents have amended this sentence from their May 11 filing to reflect that
the Court had automatically extended the 90-day time to file cert petitions by 60 days.

